December 3, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Office Supplies National Contract Compliance
         (Report Number CA-AR-10-002)

This report presents the results of our review of Postal Service employees’ compliance
with the national OfficeMax contract (Project Number 09YG026CA000). We performed
this review at the request of, and in coordination with, the Services Portfolio manager.
Our goal was to assist Supply Management officials in monitoring employees’
compliance of purchasing office supplies from the OfficeMax national contract to
improve their leveraging of spend on this contract. This audit addresses operational
and financial risk. See Appendix A for additional information about this audit.

Conclusion

Employees generally complied with purchasing office supplies through the national
contract and obtaining purchase approval using the eBuy system. Employees made
95 percent of office supply purchases (or $69 million of $74 million) through the
OfficeMax catalog in eBuy between April 2008 and March 2009. However, employees
could improve compliance by obtaining contract pricing and receiving requisition
approval prior to purchase. During our audit, we also identified 163,446 transactions
with OfficeMax (valued at $8,979,032) that circumvented the requisition approval
controls implemented in the eBuy system.

Office Supplies Not Purchased at Contract Pricing

Postal Service employees did not always purchase office supplies and printing services
available through the national OfficeMax contract at contract pricing. Twenty-nine1 of
the 77 invoices reviewed contained office supplies or printing services not purchased at
contract pricing. On 11 invoices2, employees paid $1,158 more than the contract price
for office supplies and on the remaining 18 invoices3, employees paid $5,089 less than
the contract price. The majority of the lower price items were for printing services.
When employees make purchases not using the national contract and do not inform

1
  Nineteen of these invoices were for office supplies and printing services purchased at OfficeMax but not at the
contract price. The remaining nine invoices were for purchases at other vendors.
2
  Five of these invoices were for purchases employees made through OfficeMax, but at more than the contract price.
3
  Fourteen of these invoices were for purchases employees made through OfficeMax at less than the contract price
and without informing the contracting officer of the lower prices.
Office Supplies National Contract Compliance                                                        CA-AR-10-002



contracting officers (COs) of lower purchase prices, the Postal Service does not realize
leveraged spend efficiencies.4

This occurred because employees thought they were following established policies and
procedures for ordering office supplies. In addition, they did not contact OfficeMax to
obtain item price matching or renegotiate pricing when applicable. Employees gave the
following reasons for not following policies and procedures:

        They could not locate the item in the national OfficeMax catalog;
        OfficeMax could not meet the delivery time; or
        They thought they received the contract price.

However, we found that these items were available in the catalog. In addition, office
products are not emergency essential items and employees can order them from
OfficeMax if inventory is managed properly.

As a result, we identified at least $35,526 of unrecoverable questioned costs5 based on
items purchased in excess of the contract price. We also identified at least $51,388 of
funds put to better use6 based on items priced below contract pricing that employees
bought from other vendors but which they could have potentially renegotiated with
OfficeMax to lower or match the other vendors’ price. See Appendix B for our detailed
analysis of this topic.

We recommend the vice president, Supply Management:

1. Reiterate to employees the requirements relevant to proper use of the national office
   supplies contract, including the requirement to contact the supplier to obtain item
   price matching, when applicable, to maximize potential supply chain management
   savings.

We also recommend the vice president, Supply Management, direct the manager,
Services Portfolio, to instruct the manager of the Eastern Services Category
Management Center to:

2. Review printing services contract pricing for potential cost savings opportunities
   through renegotiated prices.




4
  Leveraged spend efficiencies are gained through use of negotiation techniques with a supplier that include and
focus on the total amount spent with that specific supplier.
5
  Unrecoverable questioned costs are unnecessary, unreasonable, or an alleged violation of law or regulation. We
questioned these costs, because the purchase prices of items reviewed exceeded the contract price.
6
  We classify funds put to better as amounts the Postal Service could use more efficiently by implementing
recommended actions.




                                                        2
Office Supplies National Contract Compliance                                                            CA-AR-10-002




Requisition Approval Not Received Prior to Purchase

Employees did not always receive the required requisition approval prior to making
purchases. Eleven of the 77 invoices reviewed did not have eBuy requisition approval
before purchase. This occurred because employees received verbal authority, forgot to
get authorization, were unaware of the policy or needed the item urgently and obtained
approval after purchase. Employees are required to obtain prior funding approval for all
purchases. Without appropriate prior approval, these purchase commitments could be
unauthorized and invalid.7 As a result, there could be a cumulative effect on local office
supply and purchase card expenditure budgets. See Appendix B for our detailed
analysis of this topic.

We recommend the vice president, Supply Management:

3. Issue supplemental guidance to ensure employees are aware of and understand the
   policies and procedures requiring eBuy approval for requisitions prior to making a
   purchase to prevent unauthorized contractual commitments.

Backdoor Order Transactions

While conducting our review, we became aware of a process called ”backdoor
ordering,’’ which allows OfficeMax to create office supply orders on behalf of Postal
Service employees and submit them to the eBuy system for tracking and electronic
invoicing. The backdoor ordering process circumvents controls in the eBuy system.
Specifically, there is no validation that an employee actually placed an order, the items
ordered were correct, or that the requisition received proper approval before payment.

The Postal Service established the backdoor order entry process when it created the
OfficeMax contract in January 2000. At that time, there were still a substantial number
of offices without access to the Internet or the eBuy system. The backdoor process
allowed these offices to mail, fax, or telephone orders to OfficeMax, who would enter
the order into the system for processing and payment. The Postal Service established
this process so these sites could benefit from using the national contract. Since there is
no validation of purchase approval or independent certification of the invoice before
payment, we identified $8,979,032 in unrecoverable unsupported questioned costs8 for
the 163,446 backdoor transactions that occurred from July 2007 through June 2009.
Postal Service officials propose that the forthcoming eBuy2 system will eliminate
backdoor orders altogether. Until the new system is operable, officials need to
implement an internal control system that prevents circumventing the approval and
invoice certification processes. See Appendix B for our detailed analysis of this topic.
7
  The value of these 11 invoices ($4,736) is included in our calculation of questioned costs and funds put to better use
for transactions purchased over and under the contract price. Therefore, we are not claiming monetary impact for
this finding.
8
  Unrecoverable unsupported questioned costs are unnecessary, unreasonable, or an alleged violation of law or
regulation. We questioned these costs because they were not validated and certified before payment.




                                                           3
Office Supplies National Contract Compliance                                    CA-AR-10-002




We recommend the vice president, Supply Management,

4. Establish and implement authorization and invoice certification control procedures
   for backdoor ordering and invoicing.

Management’s Comments

Management generally agreed with the findings and recommendations. Management
stated that it was not their intent to require invoice validation and approval for backdoor
ordering transactions prior to purchase, and disagreed with our monetary impact
relevant to these transactions. However, management noted that the new eBuy2
system would eliminate backdoor ordering transactions. Management said they would
update policies and procedures in the roll out of eBuy2 and communicate them,
particularly as they relate to our audit, to all Postal Service employees. Management
expects to complete these actions as they roll out eBuy2 beginning in December 2009
and ending in April 2010. See Appendix D for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report. We
continue to find the lack of prior approval for backdoor ordering transactions to be a
significant control problem. Without appropriate prior approval, these purchase
commitments could be unauthorized and invalid. However, the elimination of backdoor
ordering transactions will resolve this problem.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management, or me at (703) 248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Craig D. Partridge




                                               4
Office Supplies National Contract Compliance       CA-AR-10-002



     Susan A. Witt
     Bill Harris




                                               5
Office Supplies National Contract Compliance                                                         CA-AR-10-002



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

As part of the strategic goals of reducing costs and furthering competitive and business
objectives, the Postal Service entered into a partnership with OfficeMax Government
Solutions9 for supply products. On January 7, 2000, the U.S. Postal Service awarded a
national contract for the purchase of a full range of office supplies to OfficeMax. On
February 7, 2006, the agency added Impress printing service pricing to the contract.
Using this service is not mandatory, but it provides an additional sourcing option.
Between April 2008 and March 2009, the Postal Service spent more than $69 million for
office supplies through the contract.

The Eastern Services Category Management Center (CMC) in the Supply Management
Services Portfolio manages the contract. The CMC currently monitors office supply
spending through a Microsoft Access database.

Postal Service employees must purchase all office supplies from OfficeMax with the
following two exceptions:

        (1) If OfficeMax cannot meet a required delivery date and another supplier can,
            employees have the option of purchasing from that competitor.

        (2) If an employee obtains a lower total cost with a supplier other than OfficeMax,
            they have the option of asking OfficeMax to match the price or to purchase
            the item at the lower cost from the other supplier.10

To provide accessibility to the contract pricing, an electronic catalog of OfficeMax
products is available in eBuy.11 Employees must use eBuy for requisition approval
whether they purchase the item on or off catalog.12

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess Postal Service employees’ compliance in purchasing office
supplies through the national contract and determine whether management granted
approval for these purchases using the eBuy system.


9
  Previously, OfficeMax Government Solutions had the following names: Boise Cascade Office Products, Inc.; Boise
Office Solutions; and, most recently, BCOP Federal.
10
   National Mandatory Requirements Contract for Supplies Awarded to OfficeMax Government Solutions, Material
Logistics Bulletin (MLB) number MLB-CO-00-002, dated December 29, 2008.
11
   eBuy is an electronic commerce portal that provides Postal Service employees with electronic requisitioning,
approval, and invoice certification capability.
12
   On-catalog and off-catalog refers to whether the item was purchased using the national OfficeMax catalog in eBuy.




                                                         6
Office Supplies National Contract Compliance                                                      CA-AR-10-002



To accomplish our objective, we interviewed Supply Management Eastern Services
CMC COs. We also reviewed contract file documentation, responses received from
questionnaires sent to employees, and guidance establishing the use of the national
contracts.

We obtained a list of off-catalog office supplies purchased between April 2008 and
March 2009 from the Accounts Payable Excellence and Purchase Card systems. There
are no specific fields in the Postal Service databases that identify office supplies,
therefore, we used a query the Eastern Services CMC currently uses to extract this
category of purchases.13 We analyzed the results of the query to remove purchases not
related to office supplies to finalize a universe of office supply transactions. We also
obtained from the CO those price lists that were in effect when employees made
purchases.

We conducted a nationwide statistical sample and compared off-catalog purchase
prices to the price lists to determine whether the items purchased were available
through the national OfficeMax catalog and the respective price differences. We also
analyzed purchase documentation to determine whether there was requisition approval
before purchasing through the eBuy system.

We conducted this performance audit from March through December 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on October 6, 2009, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems.14 We did not
directly audit the systems but performed a limited data integrity review by validating a
sample of data to source documentation. We did note there are no key data fields to
identify office supply purchases. Although this data limitation constrained our work, we
were able to compensate by applying alternate procedures as previously discussed in
this report.




13
   The Eastern Services CMC Category Spend tool defines total category spend based on queries that incorporate a
combination of named suppliers and category key words typically associated with suppliers doing business in the
subject categories.
14
   We obtained data from the APEX, eBuy, and Purchase Card systems.




                                                        7
Office Supplies National Contract Compliance                                CA-AR-10-002




PRIOR AUDIT COVERAGE

There was one prior report related to compliance with the terms and conditions of
national contracts. The U.S. Postal Service Office of Inspector General issued the Audit
of Compliance with the Use of MSC Industrial Supply Co., Inc. and W. W. Grainger, Inc.
National Contracts (Report Number CA-AR-07-004, dated May 23, 2007), which
concluded that Postal Service employees placed orders for maintenance, repair, and
operations supplies outside of the MSC and W. W. Grainger national contracts. As a
result, the Postal Service incurred unrecoverable questioned costs of approximately
$217,113 based on items purchased in excess of the contract price, and we identified
$1,751,112 in funds put to better use based on items priced below contract pricing that
could potentially be renegotiated to lower the contract price. Management generally
agreed with the findings and recommendations.




                                               8
Office Supplies National Contract Compliance                                                         CA-AR-10-002



                                APPENDIX B: DETAILED ANALYSIS

Office Supplies Not Purchased at Contract Pricing

Postal Service employees generally complied with using the national OfficeMax contract
to purchase office supplies. Of the $74 million in offices supply transactions identified,
employees purchased 95 percent of them from the OfficeMax eBuy catalog. Twenty-
nine15 of the 77 invoices reviewed contained office supplies or printing services that
employees did not purchase at the contract price. On 11 invoices,16 employees paid
$1,158 more than the contract price and on the remaining 18 invoices17, employees
paid $5,089 less than the contract price. The majority of the lower price items were for
printing services.

Employees thought that they were following established policies and procedures
requiring them to order supplies from the national contract with OfficeMax. In addition,
they did not contact OfficeMax to obtain item price matching or renegotiate pricing when
applicable. Employees gave the following reasons for not following policies and
procedures:

        They could not locate the item in the national OfficeMax catalog;
        OfficeMax could not meet the delivery time; or
        They thought they received the contract price.

However, we found that these items were available in the catalog. In addition, office
products are not emergency essential items and employees can order them through
OfficeMax if inventory is managed properly.

Employees made five of the 18 lower priced purchases with other vendors. Postal
Service policy indicates that employees may purchase office products with another
vendor if available at a lower total cost; however, they also have the option of
requesting a price match from OfficeMax.18 The remaining lower price purchases were
for printing services at local OfficeMax stores. Employees indicated they made these
purchases according to the contract, but obtained local pricing.

When employees do not make purchases using the national contract and do not inform
COs of lower purchase prices than the contract price, the Postal Service does not
realize leveraged spend efficiencies. As a result, we identified at least $35,526 of
unrecoverable questioned costs based on items purchased in excess of the contract

15
   Nineteen of these invoices were for office supplies and printing services that employees purchased at OfficeMax
but for which they did not obtain the contract price. The remaining nine invoices were for purchases made through
other vendors.
16
   Five of these invoices were for purchases at OfficeMax for which employees paid more than the contract price.
17
   Fourteen of these invoices were for purchases at OfficeMax for which employees paid less than the contract price
and did not inform the contracting officer of the lower prices.
18
   National Mandatory Requirements Contract for Supplies awarded to OfficeMax Government Solutions, MLB
number MLB-CO-00-002, dated December 29, 2008.




                                                         9
Office Supplies National Contract Compliance                                                             CA-AR-10-002



price. We also identified at least $51,388 of funds put to better use based on items
priced below contract pricing that employees bought from other vendors; but which, they
could have potentially renegotiated with OfficeMax to lower or match the other vendors’
price.

Requisition Approval Not Received Prior to Purchase

Postal Service employees did not always receive requisition approval before making
purchases. Eleven of the 77 invoices reviewed (or about 14 percent) did not receive
eBuy requisition approval before purchase. This occurred because employees received
verbal authority, forgot to get authorization, were unaware of the policy or needed the
item urgently and obtained approval after purchase. Two of the 11 invoices with no
approval did not have eBuy requisition support: One employee indicated they received
verbal authorization and one forgot to obtain approval. Purchasers for the remaining
eight invoices obtained approval in eBuy after the purchase. One employee indicated
they needed the item urgently and obtained approval the day after purchase and
another employee was unaware of the policy of approval for all purchases. We did not
receive an explanation for not obtaining prior approval for six purchases.

All purchases must have eBuy approval in advance of purchasing.19 Without
appropriate prior approval, these purchase commitments could be unauthorized and
invalid. As a result, there could be a cumulative effect on local office supply and
purchase card expenditure budgets.

Backdoor Order Transactions

Employees typically purchase office supplies through eBuy’s online OfficeMax catalog.
An employee creates a requisition in eBuy, which electronically forwards the request to
the appropriate approving official. Once approved, eBuy transmits the request to
OfficeMax via Electronic Data Interchange (EDI).20 The order is fulfilled and an invoice
is transmitted back via EDI, which eBuy validates to the employee who submitted the
request before sending it to the Information Technology/Accounting Service Center
(IT/ASC) for payment.

A backdoor order occurs when an employee contacts OfficeMax to purchase products
listed on the contract. An OfficeMax representative initiates the order and a file is
transmitted from the OfficeMax system to eBuy via EDI. Once the order is fulfilled an
invoice is transmitted back via EDI, which eBuy validates to the OfficeMax-submitted
request and then sends to the IT/ASC for payment. The Postal Service established the
backdoor order entry process when it created the OfficeMax contract in January 2000.
At that time, there were still a substantial number of post offices without access to the
Internet or the eBuy system. To afford these sites the benefits of the national contract,


19
     Handbook AS-709, Purchase Card Policies and Procedures for Local Buying, Sections 332.1 and 411.
20
     Electronic Data Interchange is the application-to-application exchange of business data in a standardized format.




                                                            10
Office Supplies National Contract Compliance                                                  CA-AR-10-002



the backdoor process allowed these offices to mail, fax, or telephone their orders to
OfficeMax who would then enter the order into the system for processing and payment.

The backdoor ordering process circumvents some controls of the eBuy system.
Specifically, eBuy does not document required approvals for these transactions and
there is no assurance that the employee actually placed the order or that the order was
correct before payment. Postal Service officials contend that some of these backdoor
transactions may have received bulk funding approval for specific purchases approved
in advance. However, they did not provide documentation to support that these
transactions received bulk funding approval. Therefore, it is questionable as to whether
there was approval before payment.

Employees are required to reconcile purchases charged to their finance number 21 that
occur after payment is made. However, because there is no validation of purchase
approval or independent certification of invoice prior to payment, we identified
$8,979,032 in unsupported questioned costs for 163,446 backdoor transactions that
occurred from July 2007 through June 2009. Postal Service officials propose that the
eBuy2 system launching in mid-November 2009 will eliminate backdoor orders. Until
the new system becomes operable, officials should implement an internal control
system to correct the controls that allow circumvention of the approval and invoice
certification processes.




21
  National Mandatory Requirements Contract for Supplies Awarded to OfficeMax Government Solutions, MLB-CO-
00-002, dated December 29, 2008.




                                                     11
Office Supplies National Contract Compliance                                     CA-AR-10-002



                             APPENDIX C: MONETARY IMPACT

 Calculation of Unsupported Questioned Costs, Unrecoverable and Recoverable
                 Questioned Costs, and Unrecoverable Revenue

We performed a stratified variable sample of 77 invoices from a universe of 20,916
office supply invoices, valued at $3.8 million. Postal Service officials overpaid
approximately $1,158 on 11 invoices, which reflected a price paid that was more than
contract pricing. In addition, Postal Service officials underpaid approximately $5,089 on
18 invoices, which reflected a price paid that was less than contract pricing. We used
the $1,158 overpayment and $5,089 underpayment to project questioned costs and
funds put to better use to our universe, respectively.

We calculated with a 95 percent confidence level that our population contains at least
$35,526 in unrecoverable questioned cost for items purchased at higher prices than
contracting pricing and at least $51,388 in funds put to better use where lower priced
items could have been obtained through the national contract by either price matching
or contract pricing renegotiation. Further, we are claiming the 163,446 backdoor
transactions occurring between July 2007 and June 2009, valued at $8,979,032, as
unsupported questioned costs, because there is no validation of purchase approval or
independent certification of invoice before payment.

                Finding                                 Description              Amount
 Office Supplies Not Purchased at              Unrecoverable questioned costs      $35,526
 Contract Pricing                              Funds put to better use              51,388
 Backdoor Order Transactions                   Unsupported questioned costs      8,979,032

                                               TOTAL                            $9,065,946




                                                 12
Office Supplies National Contract Compliance               CA-AR-10-002




                       APPENDIX D: MANAGEMENT’S COMMENTS




                                               13
Office Supplies National Contract Compliance        CA-AR-10-002




                                               14
Office Supplies National Contract Compliance        CA-AR-10-002




                                               15
